HHS/OIG-Audit-"Review ofUnfunded Pension Costs of Blue Cross and Blue
Shield of North Dakota," (A-07-00-00116)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of North
Dakota," (A-07-00-00116)
February 1, 2001
Complete
Text of Report is available in PDF format (1.35 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review titled, "Review of Unfunded
Pension Costs of Blue Cross and Blue Shield of North Dakota." The purpose of
our review was to compute interest on the January 1, 1992 accumulated unfunded
pension costs and to determine if pension costs allocable to the Medicare contracts
for plan years 1992 through 1995 were funded in accordance with the Federal
Acquisition Regulations (FAR). During our previous review of Blue Cross and
Blue Shield of North Dakota (North Dakota) (CIN: A-08-94-00740), we determined
that the Medicare segment accumulated $671,198 in unfunded pension costs as
of January 1, 1992. We recommended that North Dakota identify those unfunded
pension costs as an unallowable component of subsequent years' pension cost
calculations. We also recommended that North Dakota update the accumulated unfunded
pension costs, and identify and track similar costs occurring in later years.